HHS/OIG, Audit - "Review of High-Dollar Payments for Medicare Part B
Claims Processed by HealthNow New York, Inc., for the Period January 1, 2003,
Through December 31, 2005," (A-02-07-01042)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of High-Dollar Payments for Medicare Part B
Claims Processed by HealthNow New York, Inc., for the Period January 1, 2003,
Through December 31, 2005," (A-02-07-01042)
February 1, 2008
Complete
Text of Report is available in PDF format (347 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine whether HealthNow New York,
Inc.s (HealthNow) high-dollar Medicare payments to Part B providers were appropriate.
During calendar years 20032005, HealthNow processed 268 Part B payments of
$10,000 or more.  Of the 268 high-dollar payments that HealthNow made to
providers, 249 were appropriate.  However, HealthNow overpaid providers $236,977
for the remaining 19 payments.  Providers refunded eight of the overpayments,
totaling $111,575, prior to our fieldwork.  Eleven overpayments, totaling
$125,402, remained outstanding.
We recommended that HealthNow
(1) recover the $125,402 overpayment, (2) consider identifying and recovering
any additional overpayments made for high-dollar Part B claims paid after
calendar year 2005, and (3) use the results of this audit in its provider
education activities.  HealthNow agreed with our recommendations.